PROOF OF SERVICE

This is to certify that I have this day served the opposing party to this
action with a true and correct copy of the within and foregoing
SUBMISSION OF SUPPLEMENTAL LEGAL AUTHORITY, and its two
(2) case attachments, by depositing a copy of same in the United States mail
via the prison's internal mailing system, with adequate postage affixed
thereon to ensure prompt delivery, and addressing it to:

Matthew B. Crowder, Asst. Atty. General
Georgia Department of Law
40 Capitol Square, S.W.
Atlanta, GA 30334-1300

This

iD

day of August, 2020.

Respect y submitted,

PETITIONER, pro se
Eddie M. Amos #888637
Dodge State Prison
Chester, GA 31012-0276

